      OFFICE of 

 INSPECTOR GEN ER.AL 



Date   : April17, 2014

Replyto : Office of Inspector General (OIG)

subject : Audit Memorandum #14-13: Audit ofNARA's Compliance with the Improper Payment
          Elimination and Recovery Act of 201 0

To     : DavidS. Ferriera, Archivist of the United States (N)

Pursuant to Section 3(b) of the Improper Payments Elimination and Recovery Act of2010, we
reviewed the National Archives and Records Administration's (NARA) improper payment
reporting in NARA's fiscal year (FY) 2013 Performance and Accountability Report and
accompanying materials, to determine if NARA is in compliance with the Improper Payments
Elimination and Recovery Act of2010 (IPERA).

NARA reported in its FY 2013 Performance and Accountability Report that to comply with
IPERA "NARA completed a full program inventory and performed the risk assessment
required by FY 2011 OMB Circular A-123, APPENDIX C- Improper Payments Information
Act of2002 (IPIA), as amended by IPERA, for submission to OMB. NARA did not identify
any programs or activities that may be susceptible to significant improper payments and has
determined that payment recapture audits would not be cost-effective at this time."

Based on Office of Management and Budget (OMB) Memorandum M-11-16 agencies were to
review all programs and activities they administered to identify those programs and activities
that may be susceptible to significant improper payments. The initial review was done in 2011,
and it must be repeated at least once every three years thereafter for programs deemed not risk
susceptible. In 2011 NARA reviewed all programs and activities they administered, and
determined those programs and activities were not susceptible to risk of significant improper
payments. Accordingly, NARA is not required to repeat this until FY 2014.

Based on OMB Memorandum M-11-16, a program is deemed susceptible to significant
improper payments if the total amount of overpayments plus underpayments in the program
exceeds both 2.5 percent of program outlays and $10,000,000 of all program or activity
payments made during the fiscal year reported, or $100,000,000 regardless of improper
payment percentage of total program outlays.

We gained an understanding of the internal controls over NARA's improper payments
reporting process and management control tests used to identity improper payments. We



                             National Archives and Records Administration
gained an understanding of management procedures and controls to the extent necessary to
achieve our audit objectives. The purpose of our audit was not to provide an opinion on
internal controls but merely to evaluate controls over improper payments reporting.

Our audit work was performed at Archives II between February 2014 and April2014. We
conducted this performance audit in accordance with generally accepted government auditing
standards (GAGAS), except we did not have any findings and therefore did not obtain the
views of responsible officials. GAGAS requires that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

As with all OIG products, we will determine what information is publically posted on our
website from this memorandum. Should you or management have any redaction suggestions
based on FOIA exemptions, please submit them to my counsel within one week from the date
of this letter. Should we receive no response from you or management by this timeframe, we
will interpret that as confirmation NARA does not desire any redactions to the posted report.

Should you have any questions concerning this effort, or require additional information, please
contact me on (301) 837-3000.


          f..,Y-t--" 	
          '/7
                         ~0:7
                             ~/,-:;/~/~/      /


        pnngs            ,             ~'
Acting Inspector General


cc: 	 Senator Thomas R. Carper, Chair, U.S. Senate Committee on Homeland Security &
          Governmental Affairs
      Senator Tom Coburn, Ranking Member, U.S. Senate Committee on Homeland Security &
          Governmental Affairs
      Representative Darrell Issa, Chair, the House Committee on Oversight and Government
      Reform
      Representative Elijah Cummings, Ranking Member, the House Committee on Oversight and
          Government Reform 

      Gene L. Dodaro, Comptroller General of the United States 

      Office of Federal Financial Management, Office of Management and Budget 





                                                    Page2 

                                Naational Archives and Records Administration 

